<html>
<title> - THE REAL VICTIMS OF A RECKLESS AND LAWLESS IMMIGRATION POLICY: FAMILIES AND SURVIVORS SPEAK OUT ON THE REAL COST OF THIS ADMINISTRATION'S POLICIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   THE REAL VICTIMS OF A RECKLESS AND
                LAWLESS IMMIGRATION POLICY: FAMILIES AND
                    SURVIVORS SPEAK OUT ON THE REAL
                 COST OF THIS ADMINISTRATION'S POLICIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-64

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                               ___________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-838 PDF                    WASHINGTON : 2016                        
                       
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  
                     
                     
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                     Gary Merson, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                             APRIL 19, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     4
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     7
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     8

                               WITNESSES

The Honorable Charles A. Jenkins, Sheriff, Frederick County, MD
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
Michelle Root, Mother of Sarah Root, Modale, IA
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Laura Wilkerson, Mother of Joshua Wilkerson, Pearland, TX
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24
Minerva G. Carcano, Bishop, The United Methodist Church
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from the Federation for American Immigration Reform (56<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California, and Ranking Member, 
    Subcommittee on Immigration and Border Security. This material is 
    available at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104803

 
THE REAL VICTIMS OF A RECKLESS AND LAWLESS IMMIGRATION POLICY: FAMILIES 
   AND SURVIVORS SPEAK OUT ON THE REAL COST OF THIS ADMINISTRATION'S 
                                POLICIES

                              ----------                              


                        TUESDAY, APRIL 19, 2016

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Labrador, Smith, 
King, Buck, Ratcliffe, Trott, Lofgren, and Conyers.
    Staff Present: (Majority) Tracey Short, Counsel; Tanner 
Black, Clerk; and (Minority) Micah Bump, Counsel.
    Mr. Gowdy. The Committee will come to order.
    This is a Subcommittee hearing on immigration and border 
security. I want to welcome all of our witnesses and our 
guests.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    I also want to say this too, because I always say it: We're 
delighted to have guests, but the witnesses deserve to be heard 
and the Members need to hear what the witnesses have to say. So 
this will be the one and only warning that anyone gets with 
respect to decorum. If there is a disturbance, you'll be 
removed.
    With that, welcome again to our witnesses. The way that we 
will conduct it is we will give opening statements, and then 
I'll recognize each of you individually for opening statements, 
and then the Members will be recognized for questioning.
    With that, I would recognize myself for an opening 
statement.
    I want to begin again by thanking the witnesses for being 
here today. I cannot imagine the pain that you have endured, 
and still endure, or the courage it takes to talk about the 
loss of a child. Well-meaning people can talk about closure, 
but when it comes to the loss of a child or loved ones to an 
act of violence or recklessness, there is no closure and there 
is no moving on. There is an omnipresent void and a daily 
reminder that impacts every facet of life. Losing a child is a 
life sentence in and of itself.
    The loved ones of those killed by acts of violence or 
recklessness have to reconcile the finality of death with the 
certainty of separation and, in some instances, the reality 
that many of these tragedies could have been avoided. And 
that's what I want to talk about today, how imminently 
avoidable some of these tragedies are.
    Illegal immigration is not a victimless crime. Either the 
current state of the law or the refusal to enforce certain 
aspects of our law allow for the release of tens of thousands 
of criminal aliens into American communities. This has and will 
continue to have real and tragic consequences. So it's 
imperative that we understand this, regardless of your 
political ideation and, frankly, regardless of your views on 
immigration reform. Surely, we can all agree that protecting 
the public from violence and lawlessness is the preeminent 
function of government.
    Whatever else you may think government can or should be 
doing, national security and public safety have to make the 
list somewhere. For me, they make the top of the list, and I 
think that's true for most people, which is why it is 
unconscionable that between October of 2011 and December of 
2014, ICE released criminal aliens over 100,000 times.
    According to ICE, those released have been convicted of 
more than 10,000 assaults, more than 800 sexual assaults, more 
than 400 homicide-related offenses, and more than 300 
kidnappings. Today, there are over 350,000 known criminal 
aliens in the United States who are not detained by ICE, 
350,000.
    That number may not get your attention. Statistics rarely 
do. So I want you to think about it this way: The number of 
criminal aliens living in the United States, not in custody, 
not separated from society, is larger than the city of 
Pittsburgh, Pennsylvania; larger than the city of Lexington, 
Kentucky; larger than the city of Anaheim, California.
    Can you imagine a city the size of Pittsburgh comprised 
solely of people who are here unlawfully, who have also 
committed another crime? You would be outraged. You would not 
stand for it. You would demand immediate action. So why do we 
allow that same city to be dispersed among the broader country?
    These are not merely statistics. These are tragic, real 
stories of human suffering. Fathers and mothers, and sisters 
and brothers, and friends and neighbors across the United 
States have lost loved ones at the hands of criminal aliens. 
Some of them are sitting in the very room today.
    In May of 2010, Hermilo Moralez was arrested for stalking 
his girlfriend. He was in the United States illegally. But he 
wasn't deported. He wasn't detained. Six months later, Hermilo 
Moralez got a ride from Joshua Wilkerson, an 18-year-old high 
school senior from Pearland, Texas. Joshua thought he and 
Moralez were friends. Joshua wound up beaten, strangled, 
tortured, and ultimately killed. He was bound and his body 
burned and dumped in a field. Moralez was in the country 
illegally then too. After his arrest, Moralez was leading 
investigators to Joshua's dead body when he attempted to take 
possession of a detective's gun.
    So I've met the so-called DREAMers and valedictorians. I've 
listened to witnesses, some of whom sat in this very room, and 
argued for full, unmitigated citizenship for all 12 million 
aspiring U.S. citizens. That was what we were asked to do: a 
path to citizenship for all 12 million. And when those 
witnesses were pressed on background checks on whether all 12 
million really were aspiring citizens, the silence was 
deafening.
    It is just as inaccurate to categorize all 12 million as 
DREAMers and valedictorians as it is to characterize all 12 
million as criminals. But once this government is on notice 
that, in addition to breaking immigration laws, some insist on 
breaking other laws, there is no justification for inaction.
    Sarah Root was a 21-year-old with a beautiful, full life 
ahead of her. She graduated college with a 4.0. She aspired to 
work in forensics. That caught my attention. She wanted to 
dedicate her life to solving crimes so victims could have 
justice, so perpetrators would be punished, and to clear the 
innocent. That is the purpose of our justice system. It's a 
shame she never got a chance to work in it.
    She was struck from behind and killed by Edwin Mejia. Edwin 
Mejia was a Honduran national who illegally entered the United 
States as an unaccompanied minor in 2013. He was then placed in 
the custody of his brother, who is also an illegal alien. Mr. 
Mejia is accused of drag racing in Omaha, Nebraska, with a 
blood alcohol level more than three times the legal limit when 
he killed Sarah.
    After being charged with felony motor vehicle homicide, he 
was given a $50,000 bond by a State judge. This allowed him to 
be released after posting just 10 percent, $5,000. The purpose 
of bond is to protect the public and to ensure the defendant 
appears at scheduled court appearances. Risk of flight is 
really one of only two factors the judge has to be bothered 
with considering, risk of flight and danger to the community. 
Check and check.
    But a paltry bond was set nonetheless. State authorities 
say they contacted ICE numerous times to notify the agency of 
Mejia's elevated flight risk. In fact, State authorities say 
they requested ICE take custody of Mr. Mejia, but ICE denied 
the request and he walked right out of jail.
    Now, ICE spokesman claimed Mr. Mejia would not be detained 
because his arrest did not meet ICE's enforcement priorities. 
How in the hell somebody here illegally who operates a vehicle 
at a high rate of speed and three times the legal rate of 
impairment and kills a 21-year-old girl doesn't meet priorities 
of ICE is precisely why so little people have confidence in 
this Administration's policies and priorities, and precisely 
why so many people are angry and fed up with the current state 
of immigration enforcement. If killing a young woman while 
racing in an impaired state and being here illegally in the 
first place does not meet priorities, then perhaps your 
priorities are wrong.
    This Administration loves to talk about families being 
separated. Politicians love to talk about families being 
separated. Preachers love to talk about families being 
separated. That's the common mantra when discussing immigration 
and why they refuse to enforce current law.
    But I want to make sure my fellow citizens are clear about 
this: This Administration and the politicians and the preachers 
are not talking about the families sitting at the table this 
morning. They're not talking about the separation that comes 
from burying your child. They're not talking about the 
separation of whatever you told your daughter being the last 
thing you will ever tell your daughter because she was shot 
walking beside you, walking on a pier in San Francisco, or 
because she was killed by somebody driving three times the 
legal rate of impairment.
    Separation is a mother living with the reality that her son 
left for school in the morning and was killed with his body set 
on fire before nightfall. That is separation. That is 
permanent. I wish this Administration talked a little more 
about it, but mainly I wish they did a little more about it.
    Just yesterday, the lawyer for the President was at it 
again, this time at the United States Supreme Court, arguing 
for the nonenforcement of the law, arguing for the wholesale 
failure to enforce the law. And he said this: ``The damage that 
would be reaped by tearing apart families.''
    If you want to see that damage, Mr. Solicitor General, if 
you want to see what tearing apart looks like, I hope you're 
watching this morning.
    With that, I would recognize the Ranking Member.
    Ms. Lofgren. Mr. Chairman, I welcome today's witnesses.
    And I want to extend my condolences to the Root and 
Wilkerson families. As a mother and a grandmother, I shudder to 
think of the anguish that a parent experiences when they lose a 
child. While there may be sharp disagreements among Members of 
Congress on immigration policy, all of our thoughts and prayers 
are with you.
    Now, public safety is critically important, and there are 
important questions about criminal justice reform that this 
Committee is addressing with bipartisan legislation. Similar 
issues, including detention policy and release standards, also 
come up in the context of immigration law.
    Hearings should offer Members of the Committee and the 
public the opportunity to learn more about an issue so that we 
can work, hopefully, together to address problems that we were 
sent to Washington to solve. However, today's hearing comes 
amidst a political season in which the Republican frontrunner 
for President has essentially called all Mexican immigrants 
rapists. These vile comments vilify an entire community. 
They're inaccurate and unfair and lead to bad policy proposals 
that would make us less safe.
    Now, I've been an immigration attorney and an elected 
official working on immigration issues for a long time. I have 
the privilege of representing a socially and economically 
vibrant district in the heart of Silicon Valley. I know 
firsthand that immigrants enrich our culture and are engines 
for growth and innovation in science, technology, and the arts. 
Stereotyping and profiling are wrong when it comes to race, 
religion, and national origin. We should not let the bad acts 
of some define or malign an entire community.
    The vast majority of immigrants are hardworking, law-
abiding members of society. We know that natives commit crimes 
at a higher rate than immigrants. As The Wall Street Journal 
reported in July of 2015, numerous studies going back more than 
a century have shown that immigrants, regardless of nationality 
or legal status, are less likely than the native population to 
commit violent crimes or to be incarcerated.
    Now, while the foreign-born share of the U.S. population 
grew from 7.9 percent to 13.1 percent between 1990 and 2013, 
FBI data indicate that the violent crime rate during this same 
period declined 48 percent, which included fallen rates of 
aggravated assault, robbery, rape, and murder. Similarly, the 
property crime rate fell 41 percent, including declining rates 
of motor vehicle theft, larceny, robbery, and burglary. 
Immigrants between the ages of 18 and 39 are incarcerated at 
half the rate of native-born populations.
    And as the late, great New York Senator Daniel Patrick 
Moynihan said, ``Everyone is entitled to his own opinion but 
not his own facts.'' Vilifying entire communities undermines 
public safety and makes law enforcement's jobs harder.
    I'm particularly concerned that one of our witnesses today, 
Sheriff Jenkins, was found by the Fourth Circuit Court of 
Appeals to have engaged in racial profiling. In a 2013 
decision, the court unequivocally held that Sheriff Jenkins' 
deputies had no legal authority to arrest or even briefly 
detain a woman of Hispanic origin, who was simply eating her 
lunch in a public area outside her workplace, on the basis of a 
suspected civil immigration status violation.
    Racial profiling raises fundamental constitutional 
concerns. It has no place in law enforcement and certainly not 
in the Judiciary Committee. Smart, effective community policing 
that engenders trust in immigrant communities leads to crimes 
being reported, victims getting the assistance they need, and 
this in turn makes us all safer.
    As Richard Biehl, the police chief of Dayton, Ohio, who 
testified before this Committee last year, wrote, ``These 
policies allows us to focus on limited resources, on our 
primary mission, crime solving, and community safety. They also 
send a message that victims of violent crime, human 
trafficking, and other crimes should never be afraid to reach 
out for help due to fear of immigration consequences.''
    Today's hearing also comes 1 day after the Supreme Court 
heard oral arguments in U.S. v. Texas. Under DAPA and expanded 
DACA, the Secretary of Homeland Security proposed to establish 
a process that would allow Federal officials to consider, on a 
case-by-case basis, whether to defer deportation of certain 
unauthorized immigrants who live in the United States for 5 
years and either came here as children or who have children who 
are U.S. citizens.
    These policies create a mechanism and an incentive for low-
priority immigrants to come forward and submit to a background 
check. This promotes public safety and national security, while 
strengthening communities. Yet the Republicans just last month 
passed a resolution against these policies. What is not in 
dispute, thankfully, in this case is the authority of the 
executive to set immigration enforcement priorities.
    Every year, Congress appropriates enough money to remove 
less than 4 percent of the unauthorized immigrants now in the 
country. Should we use these resources on women and children 
fleeing violence, or should we use it to apprehend and deport 
those who commit violent crimes? This is a matter of common 
sense that we should all agree on and should not be the subject 
of bitter partisan dispute.
    I also want to address one specific point made by the 
Chairman in his opening statement regarding the release from 
detention of foreign nationals. According to ICE, in 2015, two-
thirds of all releases were mandatory, either based on the 
Supreme Court case that precludes indefinite detention or a 
determination made by an immigration judge. This is up from 40 
percent in fiscal year 2013.
    I would note that the Zadvydas decision, which requires--
the Supreme Court case that requires release of individuals who 
face indefinite detention relates to countries unwilling to 
take the return of their nationals. And with the reopening--
most of those individuals are from Cuba. And with the opening 
of relations with Cuba, I fully expect that the number of 
mandatory releases under Zadvydas will fall substantially, 
which I think is a good thing. A determination has been made 
that they should be deported.
    Now, when ICE makes discretionary determination to release 
an individual from immigration detention, it's based on risk 
evaluation. Consideration is given to special vulnerabilities, 
mental health, risk of harm to public safety, flight risk. And 
it's just not correct that immigrants are routinely and 
recklessly released from custody.
    It's also correct to say that sometimes mistakes are made. 
And in the case of the bond mentioned by the Chairman, it's my 
understanding that bond was a local bond. But I would point out 
that DUI is an enforcement priority under the November 20th 
resolution. Domestic violence is an enforcement priority. So 
I'm not here to say that ICE has never made a mistake, but to 
say that the policy is not to deport people who--in the DUI 
area is simply inaccurate.
    And, of course, let's not forget that our immigration 
system is broken and badly in need of reform. There are 11 
million undocumented people in this country. Contrary to what 
Donald Trump may think, the majority of these people are not 
drug dealers and rapists; they are hardworking people, parents 
of U.S. citizens, DREAMers, small-business owners, who want an 
opportunity to come forward, submit to background checks, get 
into the system and onto the books.
    The bill passed in 2013 by a bipartisan group of 68 
Senators would have not only grown our economy and helped 
shrink our budget deficit, but would have made our community 
safer. And the same is true for DAPA and DACA programs that 
were discussed in the Supreme Court yesterday. But DACA and 
DAPA are no replacement for comprehensive reform. That's 
Congress' job, and I hope we can get to it.
    And I would ask unanimous consent, Mr. Chairman, to place 
into the record a news article entitled, ``Court Finds 
Frederick County, Maryland, Sheriff Chuck Jenkins Illegally 
Detained Latina Immigrant.''*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see Lofgren 
submissions for the record at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104803.
    Mr. Gowdy. Without objection.
    The gentlelady yields back.
    The Chair would now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. I very much 
appreciate your holding this hearing.
    And I want to especially thank our witnesses for appearing 
today and for your willingness to testify before this 
Subcommittee on this very important issue.
    I also want to express my deepest sympathy to the family 
members of Sarah Root and Joshua Wilkerson, who were tragically 
killed by criminal aliens illegally present in the United 
States. Their mothers, Michelle Root and Laura Wilkerson, are 
here to share their stories under heartbreaking circumstances 
that no parent could be prepared for or should have to bear.
    Sarah Root was killed by an unlawful alien drunk driver 
less than 3 months ago. Only hours before her death, she 
graduated from college with a 4.0 average and a degree in 
investigations. Tragically, the Department of Homeland Security 
did not consider her killer an enforcement priority and did not 
issue a detainer for his arrest. As a result, he posted a State 
bail bond and fled.
    Joshua Wilkerson was tortured and murdered in 2010 by an 
alien who had overstayed his visa for 8 years. The killer was 
arrested on a harassment charge only months before, but ICE did 
not seek to take custody of him. The district attorney who 
prosecuted the murder case couldn't explain why ICE did not 
have an interest in him, despite the fact that ICE regularly 
reviewed the county jail roster.
    Though these two young victims had unique life stories, 
their tragic deaths are linked by a common thread: They are two 
of the many innocent victims of the irresponsible policies of 
the Obama administration that promote the presence of dangerous 
criminal aliens in American communities.
    The American public has been misled by the enforcement 
priorities, deferred action, and executive action policies of 
this Administration which categorize only certain, quote/
unquote, serious criminal aliens as worthy of immigration 
enforcement. However, this Administration's actions demonstrate 
that it finds it acceptable to permit even serious criminal 
aliens to prey on our communities.
    The fact remains that illegal immigration has consequences. 
It is not a victimless crime. And for the families and friends 
of victims killed, maimed, or otherwise hurt by aliens, 
especially those who are illegally present, the consequence can 
be devastating.
    The White House website proclaims the President's highest 
priority is to keep the American people safe. The President 
echoed that sentiment in his recent State of the Union Address. 
Americans wonder how that reassuring statement can be true if 
this Administration's current policies require criminal aliens 
apprehended at the border and in our neighborhoods to simply be 
released to victimize others.
    Americans deserve to know why this Administration would 
release thousands upon thousands of criminal aliens from DHS 
custody despite convictions that included a total of 473 
homicide-related offenses, 375 kidnappings, 890 sexual 
assaults, and 10,731 assaults before their release. And after 
their release from DHS custody, criminal aliens went on to 
commit 124 homicide-related offenses between 2010 and 2014. 
Those released in 2014 alone committed 1,423 additional crimes 
after their release from custody, including vehicular homicide, 
sexual assault, domestic violence, child abuse, and driving 
under the influence of alcohol.
    At least 95 percent of convicted criminal aliens known to 
DHS are not detained. How does that policy protect the American 
people? The harm is real and the risk is great, yet the 
consequences are largely avoidable if this Administration were 
to simply enforce the law.
    That is why last year, the Judiciary Committee passed H.R. 
1148, the Michael Davis, Jr., and Danny Oliver in Honor of 
State and Local Law Enforcement Act, legislation introduced by 
Chairman Gowdy, which provides much-needed enforcement tools 
for Federal, State, and local law enforcement agencies to 
enforce immigration law and protect the public from criminal 
aliens.
    The Administration's irresponsible policies have led to an 
increase in organized crime by aliens. Violent crime by Central 
American street gangs, such as MS-13, has become endemic in our 
communities. Sheriff Charles Jenkins of Frederick County, 
Maryland, will testify today. He is all too familiar with the 
increase in alien gang violence. His rural county, just 50 
miles from this building, has seen a significant increase in 
major crimes by MS-13 gang members.
    Alien gang crime in Frederick County increased sharply 
beginning in 2014, and nearly three-quarters of the offenses 
were for violent felonies. It is no coincidence that the spike 
in gang crime occurred during the same time that thousands of 
Central American minors were illegally entering at the 
southwest border.
    Sixty-four percent of validated gang members arrested in 
Frederick County in 2015 entered illegally through the 
southwest border as unaccompanied minors. By releasing known 
criminal aliens and refusing to secure our border, the 
Administration has sent a clear message to the American people 
that their safety and security are far less important than 
ensuring that illegally present and criminal aliens will remain 
here.
    Today, I look forward to hearing from the witnesses whose 
compelling and insightful testimony will provide this 
Subcommittee with a greater understanding of the public safety 
threat posed by criminal aliens and the tragic consequences of 
refusing to enforce our immigration laws.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The Chair thanks the gentleman from Virginia and 
now recognizes the gentleman from Michigan, the Ranking Member 
of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy and Members of the 
Committee and our distinguished witnesses that are with us 
today.
    I want to begin by also offering sincere condolences to Ms. 
Root and Ms. Wilkerson. Ms. Root, I know your daughter's death 
is recent, and the wounds have probably not even begun to heal 
yet. And to both of you, I'm sorry of your loss, and I thank 
you for your testimony that will be coming up.
    Hearings offer this Committee the opportunity to consider 
solutions, real solutions to our Nation's problems. And I think 
we can all agree that our immigration system is sorely in need 
of reform. Comprehensive immigration reform would allow law-
abiding immigrants to come out of the shadows and get right 
with the law. It would help address the concerns raised by some 
on this Subcommittee by requiring immigrants to undergo 
background checks. And it would enable Immigration and Customs 
Enforcement to focus its resources on deporting the worst 
elements.
    An immigration reform bill, such as the measure that passed 
the Senate in 2013 or the bill that had 201 House cosponsors in 
the last Congress, would enhance public safety and ensure that 
our entire community, citizens and immigrants alike, are 
protected from harm. Comprehensive reform is a concrete 
solution to a real but not an intractable problem.
    It's important to emphasize that the efforts the President 
has and is undertaking to enforce immigration laws in a 
rational, tailored, and effective way. And in November of 2014, 
the Secretary of Homeland Security announced new enforcement 
priorities. The President said at the time that Immigration and 
Customs Enforcement should focus on felons, not families; on 
criminals, not children; gang members, not a mom who's working 
hard to provide for her kids. This is a commonsense approach 
that prioritizes limited enforcement resources, and it should 
be a policy that most of us can agree on.
    I'd also note that Congress has funded immigration 
enforcement at just under $20 billion for this fiscal year, an 
unprecedented level. And under this Administration, more than 
2.5 million individuals have been removed from the United 
States. Many in the immigration advocacy community believe that 
this is too many and have been critical of the Administration.
    On the other hand, some of my more conservative colleagues 
make it seem as if there's no immigration enforcement, but the 
facts plainly do not bear this out. I believe we should expend 
far fewer resources incarcerating people and instead focus on 
efforts that actually make our community safer.
    As I mentioned at the outset, two of today's witnesses have 
suffered terrible tragedies. But we must not let the tragic 
acts of a few result in all immigrants being treated as 
criminals. The Republican Presidential frontrunner labeled 
entire communities of people as rapists, criminals, and drug 
dealers, and calls for a ban on all Muslims from America.
    Some Governors have tried unsuccessfully to bar 
resettlement of Syrians fleeing the civil war, which largely 
consists of women and children caught between the barbarism of 
ISIS on the one hand and Assad's brutal attacks on his own 
people on the other. I say to my colleagues, nothing could be 
more un-American. Immigration makes us stronger as a country. 
Pluralism will help us defeat ISIS. Exploiting fear and 
scapegoating an entire community based on race or ethnicity are 
the stuff of totalitarian regimes, not America.
    And so I thank you all for being here and look forward to 
hearing from you and your testimony.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman from Michigan yields back.
    Again, we have a very distinguished panel of witnesses 
today.
    And I want to begin by swearing you in, as we swear in all 
witnesses. So if I could please ask you all to rise.
    Do you swear the testimony you're about to give is the 
truth, the whole truth, and nothing but the truth so help you 
God?
    May the record reflect all the witnesses answered in the 
affirmative.
    You may sit down. I will introduce you en banc and then 
recognize you individually for your opening statement.
    We are pleased to have Sheriff Chuck Jenkins, who is 
currently in his third term as sheriff of Frederick County, 
Maryland, and served in law enforcement for 26 years with the 
office of the sheriff. Prior to becoming a sheriff, he was a 
very successful and a well-known criminal investigator 
specializing in crimes against persons, including homicide 
death investigations, rape and sex crimes, child sex abuse, and 
other violent crimes. He currently serves the National 
Sheriffs' Association, is an active member on both homeland 
security and immigration/border security committees.
    After Sheriff Jenkins, we will hear from Ms. Michelle Root. 
She is the mother of Sarah Root, her only daughter. On January 
31st, 2016, Sarah was killed by a vehicle driven by an alien 
unlawfully present in this country who rear ended her vehicle, 
while accused of not only racing but also being three times the 
legal rate of impairment.
    Then we are pleased to have Ms. Laura Wilkerson, who 
resides with her family in Texas. She is the mother of Joshua 
Wilkerson, who was her youngest son. He was tortured and 
murdered by someone not lawfully present in this country in 
November of 2010.
    And then lastly, we will be pleased to hear from Bishop 
Minerva Carcano.
    And if I mispronounced your name, I apologize.
    In 2004, the bishop was the first Hispanic woman to be 
elected to the episcopacy of the United Methodist Church. She 
serves as the official spokesperson for the United Methodist 
Council of Bishops and was assigned to the Western 
Jurisdictional Conference in 2012 to be the resident bishop to 
the California Pacific Annual Conference, which includes 
southern California, Hawaii, and other Pacific islands.
    Welcome to you all.
    Sheriff, I will recognize you for your 5-minute opening 
statement. The lights mean what they traditionally mean in 
light. Green is go; yellow, begin to wind up; and red, if you 
could draw that thought to a conclusion. With that, Sheriff.

    TESTIMONY OF THE HONORABLE CHARLES A. JENKINS, SHERIFF, 
                      FREDERICK COUNTY, MD

    Sheriff Jenkins. Good morning, Chairman Gowdy and 
distinguished Committee Members. My name is Charles Jenkins, 
sheriff of Frederick County, Maryland. Thank you for allowing 
me to be here today to talk about alien crime and criminal 
alien gangs in America, including my county.
    We all know that open border policies and failure to 
enforce the laws have impacted public safety in every community 
in America and cities are becoming war zones. Every single day 
more and more Americans are becoming victims of avoidable 
crimes.
    The Frederick County Sheriff's Office has partnered in the 
ICE 287(g) program since 2008 to ensure public safety. This 
program has been very effective in the identification, 
detention, and removal of criminal aliens. Through our 
partnership with ICE, we've effectively built an enforcement 
wall around Frederick County.
    The criminal alien gang members are growing across the 
Nation, and the serious crimes are increasing. There is also a 
direct nexus between the action on unaccompanied minors of 2 
years ago and the increases we are seeing now in gang crimes. 
Local stats offer what will definitely show the impact on 
public safety. There are now over 75 active, validated 
transnational criminal gang members in Frederick County, many 
more suspected. We also know that MS-13 and 18th Street alien 
gangs are recruiting.
    Of the 52 validated gang members identified since inception 
of the program, 48 percent have been identified since 2014. 
Seventy-two percent of the gang members encountered since 2014 
have been charged with felonies. Sixty-four percent of the gang 
members encountered in 2015 were unaccompanied juveniles when 
they entered the U.S. They're now adults committing more 
serious crimes. Those crimes include attempted murder, armed 
robbery, aggravated assault, home invasion, armed carjacking, 
kidnapping, and use of firearms in felonies.
    In 2014, eight criminal aliens were charged with rape and 
sexual assault of children between the ages of 5 and 14. One of 
my deputies was a victim of an unprovoked attack by an MS-13 
member while simply doing a report in his car. Recently, a 
known alien gang member was indicted in a 2013 MS-13 murder-
for-hire. The victim fled El Salvador to Frederick. The hit 
carried over to a local set in Frederick. The victim was 
lowered to a wooded area where he was shot in the head and 
stabbed to death. The growing alien gang problem has spread 
into our area high schools, where fights in one particular 
school has become almost a daily occurrence between rival 
gangs.
    Since 2008, this Administration has weakened immigration 
enforcement by dismissing deportation cases, rescinding 287(g) 
agreements, encouraging sanctuary policies, and weakening 
detainer policies. ICE directives have limited enforcement 
priorities, suspended many thousands of removals, granted 
deferred actions, and suspended removals for aliens who falsely 
claim to be victims.
    A 2014 DHS OIG report actually points out the problems and 
failures within ICE. The enforcement and removal operations, 
they have to be allowed to do their jobs to keep the criminals 
off the streets. ICE executive leadership does not communicate 
effectively with the ERO, creating systemic breakdowns.
    ERO in the field offices and on the street want to do their 
jobs but simply aren't allowed to do their jobs. ICE is broken, 
but it's not on the street; it's a couple blocks down here in 
Washington, D.C. It's actually at its highest levels. I think 
it's almost incapable of doing the job and carrying out the 
mission.
    Case-by-case amnesty, backdoor amnesty, DACA programs, and 
the DREAM Act by Executive order were pushed through. Policy 
shifts by this President weakened and ended secure communities 
and did not allow action to be taken with police departments 
and sheriffs who did not honor detainers. This allowed 
criminals to be released back on the streets. In effect, 
criminal aliens that should have been deported have been 
allowed to remain and commit more heinous crimes to our 
citizens.
    The effectiveness and value of local enforcement by simply 
cooperating with ICE is invaluable. Failure to cooperate and 
detain known criminal aliens for ICE has led American citizens, 
such as are sitting here today, to be victimized in every 
conceivable way. It is my belief that this Congress--if this 
Congress and the next President do not take an action to secure 
this border with Mexico and enforce immigration laws, every 
county in America will become a border county.
    In Frederick, Maryland, our partnership with ICE is 
effective, having placed 1,400 criminal aliens into removal 
proceedings since 2008. We honor ICE detainers so that 
criminals are not released back on the streets, assuring the 
safety of my citizens in Frederick County. Criminal aliens are 
deported. It's imperative that local law enforcement cooperate 
and honor ICE detainers and is allowed, if not mandated, to 
work with ICE as an enforcement tool.
    As stated, this Committee passed the Michael Davis, Jr., 
and Danny Oliver In Honor of State and Local Law Enforcement 
Act. I certainly hope Congress passes that bill. That act is 
going to strengthen local and State law enforcement. Every 
sheriff and police chief in this country ought to embrace that 
law, ought to embrace that mission, and help with ICE as a 
force multiplier.
    In 2009, I testified before Congress, ``The cost of doing 
nothing is enormous.'' Now in 2016, I'm back here to say we've 
seen doing nothing has jeopardized every American in this 
country. The Americans that you and I represent deserve our 
best. And you're absolutely right, this is all avoidable.
    Thank you.
    [The prepared statement of Sheriff Jenkins follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  __________
    Mr. Gowdy. Thank you, Sheriff.
    Ms. Root.

  TESTIMONY OF MICHELLE ROOT, MOTHER OF SARAH ROOT, MODALE, IA

    Ms. Root. Thank you. I would just like to thank Chairman 
Gowdy, Chairman Goodlatte, and the respected Members of this 
Committee. Thank you for inviting me to speak of Sarah.
    On behalf of my family and myself, we'd also like to thank 
the Omaha Police Department for doing the job that they did in 
catching Sarah's murderer; but, unfortunately, they were unable 
to detain him.
    Sarah was my only daughter. She was 21. She had just 
graduated from Bellevue University with a 4.0. She inspired to 
go on to get her master's in criminal investigations; however, 
that was cut short for her.
    The night of January 31st, 2016, as she was coming home, 
she was rear ended by Edwin Mejia, who was 19 years old, here 
illegally, drunk driving, street racing. My daughter died 
instantly. However, she was an organ donor, so she was kept 
alive until February--I believe it was the 4th. Days run 
together.
    My daughter was a productive child. She did not deserve to 
end this tragically. I'm sorry. It's just devastating that the 
laws that we have in place weren't carried out. The local law 
enforcement did their job. They detained him, went to ICE, 
tried to get a hold on him. ICE refused. I don't know why that 
was, with everything that happened, but he is on the loose now. 
So our family does not have closure. We probably never will 
have closure, even if he is found. I just hope that he will be 
some day found to pay for the crime that he did against my 
daughter.
    We are not against immigration. Sarah's grandmother was an 
immigrant from Vienna, Austria. She did it legally. She did it 
the right way. That's all we're asking. It's the illegal 
immigrants that are already breaking the law once they come 
over here, and they continue to break our laws in not following 
them. This is not isolated incidents; this is happening all the 
time.
    Since we've been in D.C., we have gotten a report that 
another Honduran illegal immigrant has hit and killed somebody 
else in Omaha, Nebraska. Her stories, there are thousands of 
our stories out there. Something needs to be done.
    The arrest and conviction of Edwin will not bring Sarah 
back, but it will give our family some closure and knowledge 
that justice has prevailed. Despite all the tragedy, Sarah 
still is the hero in this story. She was, again, an organ 
donor.
    We are a Nation of legal immigrants. My family, like many 
other Americans, hold no ill will to people who desire the 
American Dream. Sarah, an American citizen, desired that same 
dream, but it was taken from her.
    We urge the Members of Congress to support meaningful 
immigration reform through the support and passing of 
legislation such as Kate's Law, the Refugee Program Integrity 
Restoration Act, and the Davis-Oliver Act that empowers local 
governments and law enforcement and forces ICE to take an 
illegal immigrant into custody when requested by local law 
enforcement.
    Edwin spent 4 days in jail and is believed to have fled the 
country. He posted $5,000 bond, which was less than the cost it 
was to bury my daughter Sarah. Because of the lack of controls, 
the police, immigration, U.S. Marshals, and law enforcement 
have little or no information on his whereabouts or on him or 
his families has been found.
    Edwin was not a stranger to the law enforcement and failed 
to honor his legal obligation for minor traffic infractions 
prior to killing my daughter. Now a failed local judicial 
system that set his bond too low, coupled with the flawed Obama 
administration policies, have rewarded the illegal and punished 
my family and hampered law enforcement in their investigations.
    I just want to thank you again for letting me speak on my 
daughter's behalf and let Sarah's voice be heard. Thank you.
    [The prepared statement of Ms. Root follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                       __________
    Mr. Gowdy. Yes, ma'am. Thank you.
    Ms. Wilkerson.

            TESTIMONY OF LAURA WILKERSON, MOTHER OF 
                 JOSHUA WILKERSON, PEARLAND, TX

    Ms. Wilkerson. Thank you for allowing me to share my story 
today. Thank you for everyone that invited me here.
    My name is Laura Wilkerson, and my family became a victim 
of illegal alien crime on November 16th, 2010. This was our 
family's attack by a foreign invader, whom is in this country 
illegally. At best guess, his family are still enjoying the 
fruits of America at the hands of taxpayers. I don't know this 
as fact because the United States Government does not know as 
fact. You don't know.
    My youngest son, Joshua, was a senior in high school and 
had his whole life ahead of him. He went to school and never 
returned. As Josh walked up to the doors of the school that 
morning, Hermilo Moralez walked up as well. There's a video 
that I saw in trial. This is the last picture of Josh alive.
    This killer asked Josh for a ride home, and in the video 
you can see Josh shaking his head, yeah. And then Josh went 
inside the building, turned around and held the door open for 
Mr. Moralez to walk in. He said something to Josh, and Josh 
went--which we later found out, he wasn't going to school. So 
Josh just closed the door, allowed the door to close, and walks 
out of the frame headed to class. Last time I'll ever see my 
son walk, talk, anything about him.
    At trial, the killer testified on his behalf and gave exact 
testimony on how he systematically killed Joshua. He first--and 
this is from the killer on the witness stand. He first threw a 
punch in the face so that Joshua's vision was messed up and he 
could not fight back. He next kneed Joshua in the abdomen so 
that he would go to the ground. Josh went to the ground as his 
spleen was sliced in half.
    The killer was aggravated that it was not over yet. He was 
a black-belt mixed martial arts and thought he could do this 
without any blood. He was aggravated it was not over. He said 
he grew tired of watching bloody bubbles come from Joshua's 
nose as he was trying to breathe.
    Next, he took a closet rod and beat Josh over the head 
again and again until the rod broke in four pieces. Joshua 
still breathing. Next he strangled him, let him go to see if it 
was over. No, it's not over, so he continued until there were 
no more bloody bubbles. He must have said it six times from the 
stand. As a mom, I realize that my kid was grasping for air. He 
waited and he watched him die.
    He tied Josh's body up, stuffed him in the backseat of our 
truck, bought gas, dumped Josh in a field, and set his body on 
fire. The killer went home, took a shower, and went to see a 
movie, had popcorn and Coke.
    I testified before the Senate last July in 2015 and told 
this story. Nothing has been done about it. We can have hearing 
after hearing after hearing. Until there is action, we're just 
talking.
    The 11 million figure that you spoke about a while ago, it 
just saddens me, because that figure was thrown around from the 
very beginning of Joshua. Well, I know that her child has died 
so that's one more. Kate Steinle has died. There were two this 
weekend that died from street racing from an illegal in Houston 
this weekend, a pastor and his wife, married 30 years.
    So you need to keep that number--you don't know that 
number. Nobody knows that number. I've been to the border. I've 
watched them walk across, and you're not counting them. So that 
number is from maybe people who are seeking welfare or who are 
getting benefits from the government. Otherwise, you don't know 
how many people are here. That number just, it aggravates me.
    Because this government has no clue who is here or what 
their intent is in being here, I see this American Government 
scrambling over themselves to pretend to care about American 
families. And instead, you give away every bit of America to 
people whom have broken our laws on how to enter this country, 
then on to break other laws, now to having sanctuary cities, 
teaching them how to grab a piece of America unlawfully, and at 
the expense of American families.
    I'm stunned, I'm shocked, I'm saddened that we're even 
having this discussion. When are you going to act on it? When 
are you going to do something about it, rather than let's just 
talk about it and put a video up on your next election--on your 
Web site as if you're doing something about it? It's time to 
move. Her kid wouldn't be gone if we had moved last year when I 
testified before the Senate. Sarah would still be here. You 
have to enforce the laws.
    I watched the Sunday morning news this weekend. And over 
and over and over, follow the rules, follow the rules. And 
we're talking about the election and some of the way it went in 
Colorado. Follow the rules. Follow the laws. You know, as this 
sweet lady who is an immigration attorney, I would think she 
would have to follow the laws legally. This has nothing to do 
with people in this country that came here through the front 
door. This has everything to do with people who snuck in this 
country and continue to take from America, including our 
children.
    You know, when they mentioned the bad acts of some, the bad 
acts of some, if they took your child, you would think of it 
totally different. I realize you don't hear this every day, but 
it happens every day, whether you want to know it or not, and 
the media doesn't report it. I know it. You know it. Everybody 
in this room knows it. They report what they want to report.
    And you talked about fear, you know, that illegals are 
afraid to come out of the shadows. You know, do you want to 
know what fear is? You know, when somebody reaches in your 
house and grabs your littlest kid and tortures them, you're 
afraid of everything for a long time.
    I could care less about the fear that they put themselves 
in here. I didn't bring my kid across a border. If I would have 
told my daughter, I'm going to Mexico, and had a man, you know, 
he'll bring you over here in a year or 2, I would be charged 
with neglect, as well as I should be.
    I did not put my kid in harm's way when he went to school 
that day; you did. Every one of you is elected by an American, 
and it is time for you to stand in the gap for Americans. I'm 
so tired of being up here and going over the same thing. You're 
elected by Americans. Do something. It is your job. Every one 
of you are in a position to do something that we are not. If 
you've been in bed with somebody who is giving you too much 
money and you think their own way, get out of the way and let 
someone get in here that can care about Americans and their 
families.
    This is not about love. I do not have any hate. Two days 
after Christmas, after he killed Josh, I went and forgave this 
kid at the jail. Totally forgiven. He's off my mind. It is 
now--they asked me at the trial, you know, what did I want to 
give him, and all I could say was it's not my call to decide 
his life. It's not. They couldn't believe I said it. The jury, 
you know, it's the jury's call. I didn't want to be anything 
like him and hurt another person.
    It is time to do something. I did not--we did not put our 
kids in jeopardy. We did not decide to, you know, traipse them 
across the desert. There is no--there are no minors that came 
here by themselves. I know it and you know it. There are no 
minors, unless they're 16-year-old guys or girls that come 
here. The minors can't come here by themselves. I have seen the 
border. People die every day trying to get here.
    America has invited them, and you've got to do something. 
It is just time to do something about this. The thing that you 
can do is enforce laws. How do you pick and choose a law? I 
don't understand it, how you pick and choose a law. You know, 
the laws are here to be enforced by who? By you. And they're 
not being enforced. And my kid suffered terribly for it.
    Thanks.
    [The prepared statement of Ms. Wilkerson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Ms. Wilkerson.
    Bishop Carcano.

           TESTIMONY OF MINERVA G. CARCANO, BISHOP, 
                  THE UNITED METHODIST CHURCH

    Bishop Carcano. Mr. Chairman, Ranking Member Lofgren, other 
distinguished Members of this Subcommittee, I want to thank you 
for the privilege of serving on this panel.
    To Ms. Root and Ms. Wilkerson, I want to say that I am 
praying for you and that United Methodists across this country 
and around the world, many of them immigrant families, are also 
praying for you. No parent should ever have to endure the death 
of a child, and certainly not because of the irresponsible 
actions of an individual or the violent actions of an 
individual. We know that Sarah and Joshua are now in the 
eternal care of God, and I pray that that would bring you some 
comfort.
    Today, as we discuss these devastating tragedies, it 
appears that they will be utilized as an argument for deporting 
more immigrants and forcing local police to serve as 
immigration enforcement officers. I would strongly suggest that 
most tragedies cannot be solved by offering simplistic 
solutions that cast blame on entire communities and fail to 
take into account the intersection of multiple issues and the 
complexities of both individual and societal challenges.
    It is unjust, totally unjust, to take isolated, certainly 
very tragic incidents, and implicate millions of our 
undocumented community members. To implicate innocent men, 
women, and children in actions they did not commit is not 
justice and goes against our best values as Americans. I 
implore you to reject blind vengeance, which is never 
restorative and it's not practical. We must not allow our grief 
to divide our communities and engender hate and fear against 
immigrant brothers and sisters.
    Immigrants have built this country, and they continue to 
sustain it. They work for the benefit of us all, whether by 
picking our crops, putting food on our tables, building our 
roads and homes, tending to the needs of our children and 
elderly parents, and inspiring our many congregations.
    However, every day, hundreds of our immigrant brothers and 
sisters are deported. Children live in the constant fear that 
at the end of the school day they're going to come home and 
their parents will be gone, having been deported. Immigrants 
are daily subject to arbitrary detention. They are denied due 
process and they're spit out on the other side of our southern 
border as if they were trash.
    It is critical that we work toward community wholeness. We 
hold true that God loves all of us, including the immigrant. We 
should care deeply for each and every child of God, no matter 
where they are from or what language they speak. The Obama 
administration has deported more than 2.5 million immigrants, 
more than any other President. Despite memorandums attempting 
to reform deportation priorities, longstanding community 
members and leaders, even pastors, parents of children, elderly 
persons, and victims of crime continue to be deported.
    In 2013 alone, this country spent more than $18 billion on 
immigration enforcement, more than all other Federal law 
enforcement agencies combined. Workplace and home invasion 
raids and the failure to legislate true--true immigration 
reform have only served to exacerbate the damage caused by 
enforcement-only policies.
    Policies that strengthen trust and cooperation between 
local law enforcement and all community members are essential 
for public safety. On the other hand, policies that would force 
local police to serve as immigration enforcement officers have 
very drastic consequences of reducing communities' safety as 
immigrants, family members of immigrants, and individuals 
perceived to be immigrants fear interacting with police. In 
these situations, community members become reluctant to report 
a crime that they have witnessed or even been a victim of 
because they fear police officers will inquire about their 
immigration status, the immigration status of their family, of 
their friends, of their neighbors.
    Local policies that foster safe and welcoming communities 
are in no way a free pass. For any immigrant who violates the 
law, everyone, including immigrants, remain accountable to our 
legal system. However, policies that build trust between local 
law enforcement officials and community members are essential 
to the public safety. When all individuals can report dangerous 
situations and seek protection from violence without the fear 
of being deported and separated from their families, police can 
best protect everyone in the communities they serve.
    As this Committee considers policy proposals, it is 
critical to not end up hurting intentional community-based 
policing efforts that are vital to communities across this 
country. Trust policies and sanctuary policies promote the 
safety of all community members and encourage all victims and 
witnesses to report crimes. I urge members of this Committee to 
recognize the beneficial reasons behind these policies and the 
values that inspired them.
    We know firsthand that immigrants contribute economically 
to this country and are interwoven into the fabric of our 
communities. They are our friends. They are our family, our 
congregation, our neighbors, our doctors, our librarians, 
cashiers at the stores where we shop, friendly faces, helping 
hands. Current deportation policies have destroyed many of 
their lives.
    Why would our political leaders seek to separate more 
families, deport more of these community members, and make more 
people afraid to interact with the police? I know that such 
proposals are not worthy of the spirit of welcome of this 
country and the American people, the resilience of the 
immigrant community, the wisdom of our political leaders.
    Thank you, Mr. Chairman, thank you, Ranking Member Lofgren, 
and all the Members of this Subcommittee for your time and your 
attention.
    [The prepared statement of Bishop Carcano follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________
    Mr. Gowdy. Thank you, Bishop.
    Ms. Root, I want to let you know that Senator Sasse is here 
in support of you and your family.
    With that, I would recognize the Chairman of the full 
Committee, the gentleman from Virginia, for his--all right. 
Well, then, I will go to the Ranking Member of the 
Subcommittee, the gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you.
    I am deeply concerned and disheartened that immigration 
enforcement has been relegated to almost nonenforcement, that 
the Obama administration has on numerous occasions taken 
unilateral action to strip Immigration and Customs Enforcement 
of the authority and discretion needed for it to serve its 
critical mission.
    I was shocked, frankly, today by the contrast between Ms. 
Wilkerson's testimony--thank you for being here today--and 
Bishop Carcano's testimony.
    I can't even put into words the pain that you must be going 
through. And to hear the testimony, with all due respect, of 
Bishop Carcano that just really took no consideration of the 
pain and suffering that you are going through and to put the 
needs and benefit of people that are here illegally ahead of 
people that are born in the United States, that are U.S. 
citizens, that have suffered like you have suffered, I can't 
even put into words how disgusting it was, in my opinion.
    And I say that with all due respect, but I just--if you saw 
the contrast that I saw, I think you would revise your remarks 
before this Committee.
    I truly appreciate you both for being here today and 
applaud your courage for sharing your stories.
    Sheriff Jenkins, thank you for being here today. The 
numbers you presented on criminal gang activity are pretty 
staggering. I have been reading recently about MS-13 and some 
of the things that they are going through, and it is horrible 
what is happening to our Nation.
    What is the current status of gang activity in Frederick 
County schools today?
    Sheriff Jenkins. Well, actually, it is growing. Some of the 
problems that have started in the communities with the gang 
presence has now spread into our high schools, some of it into 
our middle schools. And, again, one of the local high schools, 
routinely fights between rival gangs. So that problem is 
bleeding into our school system.
    Mr. Labrador. In your opinion, is the 287(g) program in 
Frederick County making a positive impact in your community?
    Sheriff Jenkins. Sir, absolutely. I can't tell you--again, 
looking back--it is not about the numbers. Forget the numbers, 
although we have placed 1,400 individuals who are in this 
country illegally and committed crimes in our county have been 
placed into removal proceedings.
    It is a solid program. It works. There is no status of 
immigration checks on the street. Everything is done within our 
detention center. It has been a wonderful program.
    And I can't say enough about the oversight of the ICE field 
office and the agents that work with us day to day, and we 
basically serve them as a force multiplier. So it has been a 
great program.
    Mr. Labrador. Your testimony alluded to other jurisdictions 
not being as cooperative with Federal immigration authorities. 
What do you believe is the impact in these counties and 
communities when no relationship exists between ICE and the 
local police or sheriff's department?
    Sheriff Jenkins. I truly believe and I know for a fact--
again, I have regular conversations with the ICE field offices 
and ICE agents who oversee our program. And by the very virtue, 
I know that the counties that surround us--and I won't name the 
counties--but that alien criminal presence is increasing, the 
gang presence is increasing.
    And, listen, the word is out. They are in neighboring 
counties, but they will not come to Frederick County for the 
fact they know if they commit a crime there is a very good 
chance that if they are caught they are going to be removed. 
So, in effect, it has built a virtual wall. But the gang 
problem is growing in surrounding counties.
    Mr. Labrador. Thank you.
    Bishop Carcano, is immigration enforcement a part of our 
legal system?
    Bishop Carcano. Yes, it is.
    Mr. Labrador. You state that everyone, including 
immigrants, remain accountable to our legal system, yet you 
oppose deportation policies, detainer policies, and local 
cooperation with the Federal immigration officials. So you 
don't actually believe that everyone should be accountable to 
our legal system, do you?
    Bishop Carcano. I believe everyone should be accountable to 
our legal system. Local police departments are there for the 
safety of communities, and that should be their focus.
    Mr. Labrador. I believe that Mr. Jenkins is making his 
community safer. Do you believe that ICE serves any legitimate 
public safety purposes at all?
    Bishop Carcano. I believe that they have a specific 
responsibility to inform immigration policies in ways that are 
just and fair, not arbitrary.
    Mr. Labrador. But you decide what ``just and fair'' means; 
is that what you are saying?
    Bishop Carcano. No, the law does. The law does.
    Mr. Labrador. I think it wasn't just when Ms. Root and Ms. 
Wilkerson lost their children because of our poor immigration 
policies.
    Bishop Carcano. I agree that it was not just. It was 
violent and it was terrible. But we cannot scapegoat a whole 
community because of the actions of individuals.
    Mr. Labrador. But you know what? I keep hearing that, and 
the problem is that law-abiding immigrants do not need to come 
out of the shadows. If you come here legally to the United 
States, you don't need to be in the shadows. We have the best 
immigration system in the world. We welcome more immigrants 
than any country in the world. And, frankly, because of you and 
people like you, we are not fixing this problem and we are 
allowing this to happen, and I think it is shameful.
    And I think if you really care about your community you are 
going to help us fix this immigration system, not try to use 
excuses and call people who are trying to do this racists and 
scapegoating.
    Bishop Carcano. Across this country----
    Mr. Labrador. And, with that, I yield back my time.
    Bishop Carcano. Across this country and around the world, 
it is clear that our immigration policies are broken. I agree 
with you. We need to cooperate on fixing those broken 
immigration policies.
    Mr. Gowdy. The gentleman from Idaho yields back.
    The Chair would now recognize the gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Before my questions, I would like to ask 
unanimous consent to put in the record statements from the 
<greek-l>B1 deg.National Immigration Forum, the 
<greek-l>B2 deg.American Immigration Council, 
<greek-l>B3 deg.Church World Services, the 
<greek-l>B4 deg.Friends Committee on National Legislation, the 
<greek-l>B5 deg.Fair Immigration Reform Movement, the 
<greek-l>B6 deg.National Task Force to End Sexual and Domestic 
Violence Against Women, <greek-l>B7 deg.and the American Civil 
Liberties Union.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see Lofgren 
submissions for the record at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104803.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. It was impossible to listen to the mothers 
talk about their lost children and not just feel the anguish 
here. I mean, it is just heartbreaking to listen to your 
stories. And what happened was wrong, it was unjust, and there 
is no way to make it un-happen. I am very moved by your 
comments.
    I am also struck by what I believe is an unfortunate 
statement by the gentleman from Idaho expressing disgust at a 
Methodist bishop. I think that your prayers for these two 
mothers and their families and your straightforward statement 
was very helpful.
    Because in law school they teach us bad cases make bad law. 
And to have a tragedy but then assume that the policy answers 
flow is sometimes a mistake.
    And, you know, I was going to put in the record a newspaper 
article about a high school senior who came--fled from El 
Salvador when he was a little boy, who was just admitted to 
Stanford, Yale, and Harvard in science. I mean, he was a little 
kid.
    I remember when the children fled from Honduras, El 
Salvador, and Guatemala, I went down with along with other 
Members of the Committee to visit the border and to see what 
was going on firsthand. And I will never forget going to the 
border stations one evening, and the oldest child there was 
about 14. Most of the kids were 7, 8, 9 years old--little kids. 
And to listen to them--you know, there was a 3-year-old there, 
who--the only thing the 3-year-old could say was ``Miami.'' No 
one knew where her mother was. And she, I think, ended up in a 
foster family.
    So, obviously, our hearts go out to those little kids. You 
know, they haven't suffered the way these mothers have, 
obviously, but those little kids had nothing to do with the 
murderers who devastated these families.
    And so I think it is important that we get the policy 
prescriptions right, informed by these very important stories. 
And I do not kid myself that it is easy to come in front of a 
Congressional Committee and open your heart about what has 
happened to you and your family.
    Nevertheless, we've got to figure out what to do. We're 
still appropriating about 4 percent of the amount that would be 
required to remove every person without their documents in the 
U.S. And there are plenty of people who are here who are not 
harmful to anyone. The question is we need to sort out the bad 
guys from the good and make sure that our country's interests 
are well-served.
    And I am wondering, Bishop, if you have taken a look at 
some of the policy prescriptions that have come out of this 
Committee. I think it might have been the Chairman of the 
Committee who mentioned H.R. 1148, the Michael Davis-Danny 
Oliver law, or H.R. 3009, the Sanctuary Cities Act--whether 
you've taken a look at those bills and whether you think that 
they would make our communities safer.
    Bishop Carcano. I have taken a look at them.
    In fact, H.R. 1148 came out of some of the work from the 
office of Congressman Goodlatte. And I sat with a staff member 
of yours, Congressman Goodlatte, who described the work, some 
of the foundational work. And having at that point been, and 
still, in Arizona, serving as the bishop in Arizona, I was 
suddenly struck by the similarities with S.B. 1070. And I said 
to him, ``It sounds just like S.B. 1070,'' and he said to me, 
``It is. We've just closed all the loopholes.''
    Well, S.B. 1070 and now H.R. 1148 is just--it's just a 
nationalization of 1070. It does racial profiling on megawatts. 
It gets police officers and local communities doing the work of 
ICE. It undermines the safety of communities in a national and 
big way.
    H.R. 3009, to keep State and Federal funding from 
communities that are trying to live together in peace, that are 
trying to provide safety for everyone, just does not help. It 
is a perpetuation of those kinds of things that have been 
happening for decades.
    Ms. Lofgren. Bishop, I see my time has expired, so I thank 
all the witnesses.
    And I yield back, Mr. Chairman.
    Mr. Gowdy. The gentlelady yields back.
    The Chair would now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    And, Bishop, this is a perfect segue for me to pick up 
where you just left off. So, in your testimony, you talked 
about the irresponsible actions that led to the deaths of the 
son and daughter of Ms. Wilkerson and Ms. Root, right? 
Irresponsible actions.
    But isn't the violation of the law by illegally entering 
the United States or overstaying the amount of time that the 
United States Government has granted permission to an 
individual to stay in the United States an irresponsible action 
as well?
    Bishop Carcano. I wish it were that simple, Congressman.
    Mr. Goodlatte. It is a yes-or-no question.
    Bishop Carcano. No, it's not. I'm sorry that it's not. 
People who flee----
    Mr. Goodlatte. Well, then tell me why it's not an 
irresponsible action----
    Bishop Carcano. People who----
    Mr. Goodlatte [continuing]. To violate the law and cross 
the border into this country illegally, or knowing in your 
passport you have a document that allows you to stay here for a 
specified period of time and overstay that, why that is not an 
irresponsible action? Can't you at least concede that?
    Bishop Carcano. It's a difference between moral and just 
laws. When families are having----
    Mr. Goodlatte. No.
    Bishop Carcano [continuing]. To flee their places of 
residence because they can't----
    Mr. Goodlatte. So do people get to choose which law they 
get to abide by? Is that what your philosophy is?
    Bishop Carcano. That's not my philosophy, but it is my 
philosophy that----
    Mr. Goodlatte. Well, then please tell me why it's not an 
irresponsible action to violate the law.
    Bishop Carcano. Because a parent has a responsibility to 
feed his or her children so that they don't die, as well.
    Mr. Goodlatte. But they can do that anywhere in the world 
that they're lawfully allowed to be, can they not?
    Bishop Carcano. I've looked at Germany and the wonderful 
things that they've done to allow immigrants to come there who 
are fleeing from persecution and----
    Mr. Goodlatte. Then that's just fine for the people of 
Germany, but the people of the United States have a set of laws 
on the books, and it's irresponsible for people to not abide by 
those laws.
    And the consequence of that irresponsibility is the death 
of people. And it is not possible for anyone in this country to 
know which unaccompanied minor or which individual who comes 
across that border illegally or overstays their visa is going 
to be the person who results in the death of people who are 
simply going about their lives. They're in the wrong place at 
the wrong time. And it's irresponsible for them to not abide by 
our laws.
    Now, let me ask you a question. Do you----
    Bishop Carcano. It is irresponsible to allow children to 
die. It is irresponsible to have----
    Mr. Goodlatte. Of course it's irresponsible to allow 
children to die. That's why it's irresponsible to allow them to 
come accompanied by gang members, accompanied by drug 
smugglers, accompanied by organized criminals, to bring them 
all the way from Central America through Mexico through our 
border. That's irresponsible.
    Do you believe that those who knowingly enter the U.S. 
unlawfully and commit crimes--never mind that it's a crime 
itself to cross the border illegally. But if they knowingly 
commit crimes, should they be removed?
    Bishop Carcano. Criminal elements should be removed, but 
that's not what's happening here. Families, hardworking 
families, who are contributing to this society are----
    Mr. Goodlatte. There are over 250,000 people who have been 
convicted--convicted--of crimes in the United States who were 
already unlawfully present in the United States. Should they be 
removed? 250,000 who have been convicted of crimes, should they 
be removed by this Administration?
    Bishop Carcano. This Administration needs to continue to 
focus on reforming broken immigration laws that do not allow 
ICE and----
    Mr. Goodlatte. Well, a great place to start would be to----
    Bishop Carcano [continuing]. Do not allow local police 
officers to do their jobs.
    Mr. Goodlatte [continuing]. Enforce the other laws of this 
country. Because the crimes against murder, the crimes against 
rape, the crimes against armed robbery, the crimes against 
child abuse, those are not crimes that are written on our books 
that depend upon whether somebody is here illegally or legally 
or whether they are a citizen of the United States or not a 
citizen of the United States.
    And all I am asking you is, if you are not supposed to be 
here in the first place and you commit one of those crimes, why 
should you not be removed from the United States?
    Bishop Carcano. I would say address the law with the 
criminals, but don't undermine the fabric of families who are 
simply working, helping this country----
    Mr. Goodlatte. What are you doing----
    Bishop Carcano [continuing]. To do all that it needs to do.
    Mr. Goodlatte. Let me ask you this. What is your church 
doing to discourage people from coming to the United States 
illegally and staying in the United States illegally?
    Bishop Carcano. Well, first of all, we are working to 
welcome everyone. We are working----
    Mr. Goodlatte. Well, that is very concerning to me. So 
you're essentially aiding and abetting people who are violating 
the laws of our country?
    Bishop Carcano. We do not ask people their immigration 
status when we----
    Mr. Goodlatte. Why not?
    Bishop Carcano [continuing]. Feed the hungry. Because 
that's not our----
    Mr. Goodlatte. You could help them in Central America, you 
could help them in whatever country they're from just as easily 
as you can help them here. But your philosophy goes beyond 
that, doesn't it? You think that they should be welcomed in the 
United States regardless of their status.
    Bishop Carcano. Immigrants want to stay home. They're not 
able to stay home because we've undermined their economies. We 
have raped their land----
    Mr. Goodlatte. The population of the United States is about 
5 percent of the world population. Ninety-five percent of the 
people in the world do not live in the United States and do not 
have a legal right to be in the United States.
    Are you suggesting that because the United States is one of 
the more successful economies in the world that we should 
welcome all of those people to the United States because they 
can't take care of themselves at home?
    Bishop Carcano. I would restate that most immigrants want 
to stay home, but they can't feed their families. We're talking 
about Central Americans. Central Americans have come here 
because we've been involved in their economies in disastrous 
ways. We've been involved in their politics in ways that have 
undermined their countries and left their societies in shambles 
and in poverty.
    You asked me----
    Mr. Goodlatte. And so we should bring them here?
    Bishop Carcano [continuing]. If our church is doing 
anything. We are indeed working very hard in Honduras 
particularly to set up job training, to provide counsel for----
    Mr. Goodlatte. While you're there, are you telling people, 
don't make the dangerous, arduous journey to the United States 
because it's the wrong thing to do and you could harm yourself 
or your children?
    Bishop Carcano. We tell them how cruel the road is and how 
cruel immigration policies in the United States are as well.
    Mr. Goodlatte. Good. Thank you.
    Mr. Chairman, I yield back.
    Mr. Gowdy. The gentleman from Virginia yields back.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman.
    This has been a deeply painful hearing for others in 
addition to our two mothers that are here before us.
    And what I want to get to directly, Bishop Carcano, is, 
what kind of immigration policies would you like to see changed 
in this country?
    Bishop Carcano. I believe that we need laws that reunify 
families. We've got families that are divided and separated 
because of our present immigration policies. Documented and 
undocumented families are separated.
    Secondly, we do need to address giving some status to the 
12 million who are here already working hard in our 
communities, contributing to this country.
    I believe that we also need to bring to bear labor laws so 
that immigrants, documented and undocumented, are also treated 
with justice, with dignity, and with respect.
    We need to look at laws that consider the economic needs of 
this country. Many of these immigrants are here because they've 
been drawn and recruited by companies who need them--planters 
in Yuma who are growing cabbage and need the workers to come 
and help them, the tourist industry in Nevada, the crops in 
California, the dairies in Wisconsin. They are recruiting these 
workers because they don't have enough workers.
    Policies, laws that take into consideration our economic 
needs and fairly treats workers that are brought here or 
encouraged to come here as immigrants, those are the kinds of 
things that are needed.
    Mr. Conyers. Now, the Committee recognizes the complexity 
of this issue before us, and we are going to have a hearing 
continuing this subject where the Director of ICE will be 
present. So if anybody thinks that this is just a little 
passage that will be ended after this hearing, I want to make 
it clear that there is agreement on both sides of the aisle on 
this Committee that we have Director Saldana come before the 
Committee, and we are going to go into many of the questions. 
I'm sure they're getting ready for them now.
    And so I want to ask everybody else on the Committee the 
same question: Is there anything in particular we want to see? 
Because my impression now is that we've got--the laws are--
there isn't anything wrong with the laws, but they're not being 
enforced properly. Is that your impression, as well?
    Ms. Root. That's my impression.
    Mr. Conyers. Yes. Mine, as well.
    Does everybody----
    Sheriff Jenkins. Well, my opinion is it's not really that 
complex. The very simple laws are on the book. The funding is 
there for the laws to be enforced. I think to the extent that 
local law enforcement can support and cooperate with ICE, 
again, I think it would be helpful to every community out 
there.
    Again, when you look at the alien crimes from coast to 
coast, you look at the increasing criminal gang activity in 
this country, absolutely, it's not a very complex problem. It's 
enforce the laws that are on the books.
    Mr. Conyers. All right. I appreciate that.
    Would you care to comment?
    Ms. Wilkerson. I would agree, enforce the laws that are 
here. We talk about making new ones. It's regardless, if you're 
not going to enforce them, why do we have them?
    If I can expand just a little bit, you know, or respond to 
you just a little bit. If this is about God, you know, God's 
the creator of boundaries. And when you have no boundaries in 
your own families, in your own city, in your own State, in your 
own country, you have chaos. It's mass chaos.
    You know, close the border, assess what's here, and then 
decide what to do. What I'm hearing from you is that we have 
messed up other country's laws and we owe them something so 
we're allowing them to come here. That's what I hear from you, 
and I just couldn't disagree more.
    I don't know why I was born here and someone else, you 
know--but if you're going to include God in this, you know, 
bloom where you're planted. Put the energy into where you are. 
I just have such a disagreement with you about that.
    This is not about loving or hating anyone. I don't want to 
hurt anyone. I don't want anyone to hurt. But, also, I'm not 
going to put my kid in harm's way so that they can have more 
money. I'm sorry, I won't do it. I would beg and borrow to feed 
my kids. I would not steal, cheat to feed my kids. That's what 
I would do.
    Thank you.
    Mr. Conyers. My last question in a few seconds is this. 
Have we fallen into the feeling or viewpoint that the immigrant 
community is primarily comprised of criminals, rapists, and 
other undesirable elements? Because it's very easy for that 
attitude to grow.
    Bishop, I'd like you to start off with that, and anybody 
else that would want to weigh in that, I'd love to hear----
    Sheriff Jenkins. I would love to address that. That is a--
--
    Mr. Conyers. Well, wait a minute. I want to start off with 
the Bishop, and we'll go down this way.
    Mr. Gowdy. The gentleman is out of time, but I will allow 
you to answer the question.
    Mr. Conyers. Thank you.
    Bishop Carcano. That kind of language just fosters racism, 
hatred, division in our communities. It's not accurate. 
Immigrants aren't any more of a criminal mind than native-born. 
And we divide our communities and undermine any possibility of 
being fruitful communities and safe communities.
    Mr. Conyers. Yes, ma'am, would you care to respond?
    Ms. Wilkerson. I think the majority of people that are here 
are not rapists and murderers. I believe there's a lot of good-
meaning, hardworking people in this country.
    You cannot let go of the fact that if they have not come in 
the front door, they are illegal already, period. There is no 
discussion. Period. They need to adhere to the law about that. 
There's just no discussion. You can't pick and choose that.
    I agree there's probably more hardworking people here than 
there are criminals. I don't believe all immigrants are 
criminals by any means. I don't believe it's because of where 
they're from, their race, or such.
    And I don't even think that's what Mr. Trump said. I know 
that's what everybody wants to go to, but I do believe he was 
able to stand up and speak the truth about, you know, there are 
rapists here, there are criminals here, and they're here 
illegally.
    So everyone that's here that didn't come in the front door 
has committed a crime. There's no way around it. You can't 
backtrack. If you want to change that law, change that law, but 
you can't backtrack over it. I can't teach my kids, well, you 
need to follow most of the rules, but these two are up for 
grabs. It doesn't work like that.
    Mr. Conyers. And we don't want to change that law here, I 
can assure you.
    Mr. Gowdy. The gentleman from Michigan yields back.
    Before I go to the gentleman from Texas, I just can't help 
but note to the former Chairman that the gentleman from 
Michigan just rebuked the use of generalities in discussing 
groups not 2 minutes after the Democrat witness just advocated 
for citizenship for all 12million, as if all 12 million are 
homogeneous and can all pass a background check.
    So, with all due respect, it works both ways. If you're not 
going to overly characterize this group, then, for God's sake, 
don't overly characterize this group as all 12 million being 
worthy of citizenship.
    And, with that, I'll go to the gentleman from Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    I also want to say that your earlier opening statement is 
one of the best I've heard, and I appreciate your comments.
    As I understand it, over a recent 3-year period, the 
Administration has released back into our communities over 
100,000 criminal aliens. These are individuals who have been 
arrested and incarcerated for crimes. These individuals 
subsequently committed thousands of other crimes. Many 
individuals were murdered. Many individuals were injured. Other 
individuals lost their property.
    In fact, when you look at the statistics, just looking at 
murders, for example, illegal immigrants comprise about 3 
percent of our population but commit roughly 30 percent of the 
murders. So an illegal immigrant in our country is about 10 
times more likely to commit that serious crime than other 
individuals who reside in the United States.
    And, quite frankly, all this makes me wonder if President 
Obama might be an accessory to the crimes committed by illegal 
immigrants, since he intentionally implemented policies that he 
knows are going to result in the murder and loss of life and 
injury to innocent Americans.
    And I would simply say----
    Ms. Lofgren. Mr. Chairman? Mr. Chairman? A parliamentary 
inquiry. It is against the Committee rules to----
    Mr. Smith. I specifically----
    Ms. Lofgren [continuing]. Charge the President with a 
crime.
    Mr. Smith. Okay, I specifically chose my language the way I 
did, and it was a rhetorical question. I said ``I wonder,'' and 
I said ``if he might.'' So I picked those words carefully.
    Let me resume my questioning, Mr. Chairman. Thank you.
    I'd like to ask Ms. Root and Ms. Wilkerson what they would 
say to President Obama if he were in this room today at the 
table with them and said, what do you think about my 
immigration policies? What would you say to the President?
    Ms. Root first.
    Ms. Root. I would like to ask him, if this was one of his 
children--he only has two, as I do--if he would still agree 
with this law.
    Mr. Smith. Okay.
    And Ms. Wilkerson?
    Ms. Wilkerson. I would just have to tell him that what his 
agenda was he's accomplished, by opening borders and leaving 
them wide open. I think that was his agenda, and it's been 
accomplished by not following the laws.
    You see, the boundaries that I talked about just a minute 
ago, right here, we have boundaries around this meeting about 
what you can and cannot say. There are boundaries around 
everything. Do you lock your door at home? Do you lock your 
car? There are boundaries.
    To open the border like it is right now--and it is wide 
open--is chaos for this country. It's chaos for it. We need to 
know who's here for safety. We do. In this age of terrorism, we 
need to know who's here. It's not 50 years ago when people 
wandered across the border to work a hard day and then go back 
home. It's a different time and period.
    Mr. Smith. And, if you will, Sheriff Jenkins, what would 
you say to the President about the results of his policies?
    And let me thank you, too, for your testimony. It was 
forthright, it was honest and candid, and we appreciate that.
    Sheriff Jenkins. Thank you, sir.
    I would tell the President he is absolutely doing a 
disservice to Americans citizens.
    He is also doing a disservice to the immigrant community, 
because, I can tell you, a large part of the criminal acts that 
occur by criminal aliens and gang members occur within those 
immigrant communities. So he is creating, if you will, a pool 
of victims out there by not enforcing the laws to the extent 
that we can.
    Mr. Smith. Okay. Thank you, Sheriff.
    Bishop Carcano, a question for you, and that is: These 
criminal immigrants who have been apprehended, arrested, 
incarcerated, should they be released back into our communities 
or should they be deported?
    Bishop Carcano. I don't know their individual cases. So the 
law----
    Mr. Smith. No, no. I'm just talking, as a general matter, 
should, again, criminal aliens be released back in our 
communities, where a certain percentage will commit additional 
crimes, or should they be sent home?
    Bishop Carcano. I believe that criminals should be treated 
under the fullness of the law, and----
    Mr. Smith. And so no distinction?
    Bishop Carcano [continuing]. This should determined 
according to the law.
    Mr. Smith. And so they should be deported?
    Bishop Carcano. It's under the law.
    Mr. Smith. Okay. I agree with you. The Administration 
disagrees with both of us, but I certainly agree with you, they 
should be deported.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. The gentleman from Texas yields back.
    The Chair would now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    This has been one of the more difficult--has been one of 
the more difficult hearings I have sat through. And it brings 
me back to some of the earlier hearings I heard in this room 
and my thoughts about the testimony that I would hear about 
those who perished in their attempt to get into America across 
the Arizona desert. And as I contemplated their banks of 
witnesses we heard testify to that human tragedy, it began to 
occur to me, how many Americans died at the hands of those who 
did make it across the desert?
    And, Bishop, sitting in your chair was a witness who was 
former INS named Mike Cutler. As I asked the witnesses that 
question, it came to him as the last of the four to answer the 
question, and he said, ``I don't know the answer to that, but I 
can tell you it will be in multiples of the victims of 
September 11th.''
    And that sparked something in me that brought about the 
request for--it turned into two--GAO studies. And to get apples 
to apples out of this Federal Government is a difficult thing 
to do, but we learned about the percentage of criminal aliens 
in our Federal prisons--27 to 28 percent, some numbers higher 
than that. We learned that Mike Cutler was right, that it is in 
the multiples of victims of September 11th.
    Here we are looking at the tragedy, the tragedy that we're 
hearing from two mothers here today that have the strongest 
heart to be able to testify to the worst agony that a person 
could go through in a lifetime. And when I see these stories--
and I regret we have not yet met, Ms. Root--that hit me very 
hard when it finally came to me, there in my backyard was 
another tragedy that I've been struggling here in this 
Committee for years to try to prevent, right in the backyard.
    And you know that I've been across the river to help out in 
Omaha when we've had these kind of tragedies, and now I learn 
in your testimony that another one took place while you were 
here.
    And, Laura, this is at least your second time to testify 
before the Committee, and I know we did an event in Richmond, 
Virginia. I think that's where I first met you. The depth of 
your faith, to go to jail and forgive the murderous perpetrator 
that killed your son, that's equivalent to the nine families 
that stepped up to the pulpit in South Carolina and forgave the 
murderer there.
    And when you said that God is the creator of boundaries, I 
don't know if anybody else in this room or panel knows what 
you're referring to, but I believe it was St. Paul's sermon on 
Mars Hill in Acts, when he said, ``And God made all the nations 
on earth, and He decided when and where each nation would be.'' 
That's some of the boundaries that you're talking about that 
God lays out for us, and we're obligated to follow them.
    I listened to the opening statement of the gentlelady from 
California. One of the first things she did was to criticize 
our witness, Sheriff Jenkins, for profiling. I grew up in a law 
enforcement family. If you've got gray hair and you've enforced 
the law, you have profiled. And you, by golly, better profile. 
There are lives saved by profiling, legitimately--not 
discriminating against people, but being wise enough to know 
there are certain people you pay attention to and other people 
that you don't.
    And I'd put into the record, Sheriff Jenkins, you have 
likely saved many lives over your career because of good 
judgment. Included in that good judgment is profiling. Would 
that be correct?
    Sheriff Jenkins. I would say that's probably accurate, yes, 
sir.
    Mr. King. And I would thank you.
    And then I'd turn to Ms. Root.
    And I want to again express the sympathies of this panel. 
But each of you here will know that it takes the President of 
the United States to take care that the laws be faithfully 
executed. And when he tells us he doesn't have the authority to 
grant his administrative amnesty 22 times and he sets forth and 
does it anyway--and now the Supreme Court is hearing an 
argument that somehow the President can create vast groups of 
people that include millions of people and then grant them at 
least a temporary amnesty until we get a President who will 
take his oath of office, that this heartache that we live 
under--this Congress hasn't had the will to shut off the 
funding to the President's golf cart or Air Force One in order 
to ensure that he enforce immigration laws. And I don't know 
that we can get this fixed at any time without a new President.
    But I'd just ask if there's anything left that you'd like 
to say into this record, Ms. Root. I am so sympathetic to what 
you're able to do here.
    And let the record show the witness declined. And I'd move 
to Ms. Wilkerson.
    And I'd ask if you could add any more to your testimony 
here today.
    Ms. Wilkerson. Thank you.
    I just want to say that it's not about loving or unloving 
people. It's not about it at all. It's about following the 
laws. We have to have the boundaries. Everyone knows that's 
sitting here that if you don't have boundaries it's chaos. You 
don't allow your children to run your household, or you'd have 
chaos.
    I don't understand why people can't understand a country 
with no borders is not a country. You might as well just call 
us the world. We're the world. Because, you know, if we have no 
borders, we're not the United States of America. Who are we? We 
don't know. We really don't know.
    Mr. King. And I thank you.
    And I'd just ask a very quick question from Sheriff 
Jenkins.
    Fourteen hundred placed into removal proceedings in 
cooperation with ICE. How many were actually deported?
    Sheriff Jenkins. That, sir, I don't have the number. We 
never really know the number because it's on a case-by-case 
basis.
    Mr. King. That's what I thought. Thank you.
    I thank the Chairman, and I yield back.
    Mr. Gowdy. The gentleman from Iowa yields back.
    The Chair would now recognize the gentleman from Texas, the 
former United States attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here today, 
specifically Ms. Wilkerson and Ms. Root. Thank you for being 
here. Your testimony really provides living proof that 
lawlessness with respect to our immigration laws in this 
country is having devastating consequences.
    You know, we all trust that we're safe because we have 
brave law enforcement, men and women, patrolling our streets 
day and night to make sure that people obey the law. But then 
when our own government tells law enforcement that certain laws 
are not to be enforced, American families suffer--a point that 
is all too clearly and painfully illustrated by the 
heartbreaking losses that you have both experienced.
    Ms. Wilkerson, as I read your testimony last night and then 
heard it today, I was frankly embarrassed to be part of a 
legislative body that has done so little since 2010, since 
Joshua's tragic death. And, you know, while I can tell you that 
your testimony today was compelling and motivating, I don't 
want to offer you any hollow promises. But what I do hope that 
you'll take away, and Ms. Root as well, is that your testimony 
and being here does make a difference, can make a difference.
    To that point, Ms. Root, I want you--you'd have no reason 
to know this, but Sarah's death has been on my mind a lot 
recently, because it was a little over 2 weeks ago that a fire 
captain in my district, in Nevada, Texas, named Peter Hacking 
was driving a car, two children in the car, 4-year-old Ellie 
and 22-month-old Grayson, and they were killed. They were 
killed when an illegal alien, who had previously been deported, 
swerved from a northbound lane into a southbound lane where 
they were, struck Mr. Hacking's car, and killed all three of 
them.
    Now, that individual, Margarito Quintero, had entered the 
United States illegally in 2006, had been arrested on criminal 
charges, and had been deported, only to return.
    And so it was in the course of researching whether I could 
do anything to make sure that the Hacking family received 
justice I came across Sarah's story. And her story is what 
prompted me to personally call the ICE Director, Sarah Saldana, 
and ask her to place an immigration detainer on Mr. Quintero. 
Her story is what prompted me to call the U.S. attorney and ask 
that the Department of Justice prosecute Mr. Quintero for 
illegal reentry.
    Now, you know, here's someone that had entered the country 
illegally and been arrested on criminal charges, been deported, 
again entered the country illegally, and yet here I was begging 
ICE to intervene, begging it to do its job.
    But because of your family's experience, I knew that there 
was a chance that ICE might refuse to act. But I also believed 
that, because of the attention that Sarah's story has brought 
to this issue and the suffering that has been caused by this 
Administration's lawless policies, I'm happy to report that ICE 
did intervene in Mr. Hacking's case, and he is going to be 
prosecuted federally.
    You know, the fact that I had to ask ICE to do its job and 
the fact that that action, in and of itself, became a news 
story in my district really says a lot about the lowly state of 
affairs, as does the fact that yesterday our Supreme Court had 
to weigh in on this issue. I think it really speaks to the 
dysfunctional place where we find ourselves.
    You know, Ms. Wilkerson, Ms. Root, you're both right; it 
shouldn't take personal pleas from a Member of Congress to make 
this Administration enforce laws that are already on the books. 
As Chairman Gowdy said so well in his opening, when we talk 
about families being torn apart by illegal immigration in this 
country, it's families like yours that we should be talking 
about. Families like yours shouldn't have to endure the pain 
and suffering that you're experiencing. It is unnecessary, and 
I'm sorry for it.
    The questions that I have for you have been asked by my 
colleagues up here already, and so I'd just thank you again for 
being here. And I hope, you know, that your testimony and Sarah 
and Joshua's story are making a difference.
    Thank you, and I yield back.
    Mr. Gowdy. The gentleman from Texas yields back.
    The Chair would now recognize the gentleman from Colorado, 
the former district attorney, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Bishop Jenkins, I spent 25 years as a Federal prosecutor 
and then a district attorney and wanted to talk to you about a 
disturbing trend that I've seen in the last 7 years in law 
enforcement.
    I have prosecuted aggravated reentry cases as a Federal 
prosecutor. I have also worked with the Feds in local law 
enforcement. And we had a program in northern Colorado where an 
ICE agent would ride along with a police officer assigned to 
the gang unit, and they would go to the scene of crimes and 
they would interview people. And the ICE agent would identify 
tattoos and other indicators of gang affiliation, and the 
Federal Government would intervene and prosecute individuals 
who were gang members accused of crimes. That program ended 7 
years ago.
    Have you had any similar experience with cooperation 
between the Feds and your county's sheriff's office or police 
departments that has also ended in the recent past?
    Sheriff Jenkins. Well, actually, the cooperation between 
ICE currently and our agency is excellent. I have no 
complaints, no criticisms. Actually, everything works out of 
our detention center. We also gain a lot of intelligence off 
the street about gang activity, gang affiliations. We don't 
have a program where ICE actually rides along with us, but 
actual oversight, direct oversight of the program. So, again, 
the detention center is a chokepoint for everything.
    You know, we ask two simple questions on arrest. And 
everybody that's arrested in Frederick County, regardless of 
the crime, the ethnicity, the race, the gender, whatever, 
everybody is asked two very simple questions: What country are 
you a citizen of, and where were you born? Any answer other 
than ``the United States of America'' kicks off an 
investigation into their immigration status. And we would ask 
the same of anybody in this room.
    So that's where the program lies. That's where the 
effectiveness is. And so you can't say it's unfair, you can't 
say it's profiling or discriminatory.
    Mr. Buck. You took away my next question. I was going to 
ask you about profiling. Those are race-, ethnicity-neutral 
questions that are asked in every detention center, to my 
knowledge, in the country.
    Sheriff Jenkins. Correct. Very honestly, the argument for 
those who want nothing done is that we're profiling. It doesn't 
happen.
    I would even refute the Honorable Ms. Lofgren from 
California, when you brought up some supposed facts about the 
case of the young lady that was supposedly eating. That arrest 
had absolutely nothing to do with our program. Those were two 
police officers doing their job, and as they drove up to this 
woman, she got up for no apparent reason and just ran. Now, 
that throws up a red flag for law enforcement. These guys were 
police officers doing their job, simply thought there was a 
concern. You know, why are you getting up and running? What 
were you doing?
    They had the right to ask her name, identity, her date of 
birth. Once they did that, they determined there was a warrant 
for her arrest. They took her into custody the same as any 
other law enforcement officer----
    Mr. Buck. Sheriff, I'm going to redirect your attention to 
me as opposed to Ms. Lofgren.
    Sheriff Jenkins. Okay. I'm sorry, sir.
    Ms. Lofgren. Would the gentleman allow me just to respond 
briefly----
    Mr. Buck. Sure.
    Ms. Lofgren [continuing]. Since my name was--I was just 
quoting the 2012 decision of the U.S. district court in 
Maryland. You know, it wasn't my opinion. That's what the court 
said.
    Sheriff Jenkins. No, I'm sorry. I'm sorry if I inferred 
that.
    Mr. Buck. What happens--after you ask those two neutral 
questions that you identified, what happens then in your 
detention facility?
    Sheriff Jenkins. If we determine that they're in the 
country illegally and they have committed a crime----
    Mr. Buck. No, no, no, you haven't determined that yet. 
You've just determined an answer. They've given you an answer.
    Sheriff Jenkins. Yeah, they've given us an answer.
    Mr. Buck. ``I was not born in this country,'' for example.
    Sheriff Jenkins. That's correct.
    Mr. Buck. If that answer--if you get that answer or one of 
your deputies gets that answer, what do they do at that point?
    Sheriff Jenkins. We launch our check into their immigration 
status right there in the detention center.
    Mr. Buck. So you notify ICE at that point.
    Sheriff Jenkins. We do. Actually, ICE is in our facility 
for the most part every day of the week during most day shifts. 
And, again, if they're not there to answer the question, they 
have immediate direct contact. And I'll tell you, we have 
access to all of the ICE databases. So we, in effect, do those 
checks, we prepare the detainers and the paperwork and do the 
holds for ICE.
    Mr. Buck. So you're not saying, based on the color of this 
person's skin, we believe we should refer to ICE. You're not 
saying, based on the language that this person speaks, that we 
should refer to ICE. You're saying, based on an answer to a 
question that we ask everybody that is arrested and detained in 
our facility, based on that, we are referring this person to 
ICE.
    Sheriff Jenkins. If they're in fact--we determine they're 
in the country illegally, yes, sir.
    Mr. Buck. Now, based on the identity theft that we've all 
seen in this country because of illegal immigration, does ICE 
go by the name that's presented to them, or do they actually 
use some indicator like a thumbprint or some biometric measure?
    Sheriff Jenkins. They actually also use biometrics, yes, 
sir.
    Mr. Buck. Okay. And that identifies them for ICE's 
database, and ICE can determine whether they're in this country 
legally or illegally. You're not the one making that 
determination.
    Sheriff Jenkins. No, we're not.
    Mr. Buck. Okay.
    I yield back. Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman from Colorado yields back.
    The Chair will now recognize himself for his questioning.
    Bishop, you decried the use of generalities in describing 
the immigrant population right before you then used a 
generality of 12 million. You repeated the same talking points 
straight out of the DNC, 12 million aspiring citizens.
    I'm assuming that you are not counting the killer of Ms. 
Wilkerson's son in that 12 million.
    Bishop Carcano. I'm not understanding your question.
    Mr. Gowdy. Well, you said there's 12 million aspiring 
Americans here. And my point is all 12 million aren't aspiring, 
and all 12 million couldn't pass any background check, even one 
by the ACLU or a criminal defense attorney.
    Surely you're not including the person that killed her son 
in the 12 million aspiring Americans.
    Bishop Carcano. I'm not sure that I used the term 
``aspiring.'' I----
    Mr. Gowdy. You said 12 million. You spoke as if the entire 
population is deserving of citizenship. That's precisely what 
you said.
    Bishop Carcano. I do believe that the 12 million who are 
here need to be considered for a pathway to citizenship.
    Mr. Gowdy. How about the one who killed her son?
    Bishop Carcano. He's a criminal. I hope he's been dealt 
with as a criminal. But that's not the----
    Mr. Gowdy. So it's 12 million minus 1. How about the one 
that killed----
    Bishop Carcano [continuing]. The whole community.
    Mr. Gowdy. It's 12 million minus 1. How about the one that 
killed Ms. Root's daughter?
    Bishop Carcano. That's a criminal case. And we're talking 
about----
    Mr. Gowdy. All right, so that's 12 million minus 2.
    Bishop Carcano [continuing]. Immigration policy.
    Mr. Gowdy. How about the gang members in Sheriff Jenkins' 
jurisdiction?
    Bishop Carcano. If we're talking about safety in our 
communities, then let's----
    Mr. Gowdy. How about the----
    Bishop Carcano [continuing]. Talk about safety in our 
communities.
    Mr. Gowdy [continuing]. Gang members in Sheriff Jenkins' 
jurisdiction? Are those part of the 12 million with which you 
made reference?
    Bishop Carcano. I do not know. What I do know----
    Mr. Gowdy. You don't know whether or not a gang member 
should be included on a path to citizenship?
    Bishop Carcano. What I do know is that our communities 
deserve greater safety. And it's----
    Mr. Gowdy. No, ma'am. I----
    Bishop Carcano [continuing]. Not going to happen when we 
pit----
    Mr. Gowdy [continuing]. Just respectfully----
    Bishop Carcano [continuing]. Victims against victims.
    Mr. Gowdy [continuing]. Disagree with you, Bishop. 
Americans citizens should not be victimized by crime. I think 
we can agree with that. An American citizen should not have to 
wait until someone who is not here legally commits another 
crime before we decide to get serious about enforcing our 
immigration laws.
    So my question to you is this. Of the 12 million, if that 
number is right, minusing the 1 that killed Ms. Wilkerson's 
son, minus the 1 that killed Ms. Root's daughter, minus the 
gang members, minus the 300,000 that have already been 
adjudicated who have committed another criminal offense, how 
would you go about identifying the goods ones from the bad 
ones?
    Bishop Carcano. The way we identify good ones from the bad 
ones every single day, by looking at their character, by seeing 
how they're----
    Mr. Gowdy. Well, how are we supposed to do that if we don't 
even know who they are, Bishop?
    Bishop Carcano. Well, we won't know who they are if we 
continue to treat them the way we're treating them now.
    Mr. Gowdy. No, no, no, no. There's a way to know, but you 
just said you don't like the way that we've chosen to do it. 
You don't want local law enforcement----
    Bishop Carcano. No, I do not think that that is a helpful 
way.
    Mr. Gowdy. Well, let me ask you this.
    Bishop Carcano. Immigrant communities want to help.
    Mr. Gowdy. Why don't you----
    Bishop Carcano. They want to keep their communities safe. 
But they won't come forward if they think that they're going to 
be picked up by ICE----
    Mr. Gowdy. Oh, no. We----
    Bishop Carcano [continuing]. If it's going to threaten 
their lives, if their----
    Mr. Gowdy. No. We saw a perfect example----
    Bishop Carcano [continuing]. Children are going to be left 
behind.
    Mr. Gowdy. It's going to be really tough for the court 
reporter if you continue to talk while I'm asking questions. 
She's got a tough enough job. So how about we just agree to go 
one at a time, okay?
    How about Kate Steinle's murder in San Francisco? That's a 
sanctuary city. You wrote an op-ed on it. Do you remember that?
    Bishop Carcano. I did.
    Mr. Gowdy. And you advocated for policies that prevent gun 
violence. Do you remember writing that?
    Bishop Carcano. Yes.
    Mr. Gowdy. We have some of those policies. In fact, we call 
them laws. There's a law against shooting someone on a pier 
who's walking beside her father. We already have that law.
    We already have a law where convicted felons can't purchase 
or possess firearms. Do you know that Kate Steinle's killer was 
a convicted felon?
    Bishop Carcano. Yes.
    Mr. Gowdy. We also have a law that if you're not here 
legally, either overstayed a visa or crossed the border without 
permission, that you cannot legally possess or purchase a 
firearm. Did you know that was already a law?
    Bishop Carcano. Yes.
    Mr. Gowdy. So what policies are you advocating for that 
would have saved Kate Steinle'slife in addition to the ones we 
already have?
    Bishop Carcano. That's a very tragic situation, but you 
cannot blame all immigrants, documented and undocumented----
    Mr. Gowdy. I'm not. I'm just blaming the one that shot her.
    Bishop Carcano [continuing]. For the action of one person.
    Mr. Gowdy. No, no, no, no. No.
    Bishop Carcano. And that's what you're doing.
    Mr. Gowdy. Your approach is to wait until the murder and 
then do the deportation. And my approach is try to have as few 
body bags as we can possibly have, try to identify those that 
are not aspiring citizens before they kill somebody's son or 
daughter or daughter in San Francisco. That's my objective, to 
identify them before the crime.
    So my question to you is, how are you going to do that?
    Bishop Carcano. I would argue that we need trust policies, 
where immigrants, documented and undocumented, can come forth 
to report crimes and to report when they, too, have been 
victims of crimes without the fear of being deported. We need 
that kind of trust. Otherwise----
    Mr. Gowdy. You know what? I----
    Bishop Carcano [continuing]. These families will not come 
forward.
    Immigrants do not want gangs in this country or in their 
communities. Many of them----
    Mr. Gowdy. Listen, you don't hear me talking in 
generalities, Bishop. That was you that did that. I made a 
point in my opening of saying that we shouldn't be talking in 
generalities.
    I do find it bitterly ironic that you are talking about 
trust among the immigrant community and you don't even trust 
local law enforcement to enforce our immigration laws. I find 
that richly ironic.
    Why don't you trust local law enforcement to enforce our 
immigration laws?
    Bishop Carcano. I do not trust the procedures and policies 
under which we are expecting governance and policing to happen 
in our communities.
    Mr. Gowdy. Well, Bishop, you trust them in murder cases, 
you trust them in child sex abuse cases, you trust them in 
narcotics cases, you trust them in kidnapping cases, you trust 
them in traffic violation cases. You trust them in every 
category of crime except you just don't want the sheriff 
enforcing immigration laws.
    And yet you want to talk about building trust with the law 
enforcement community? And you don't trust him to enforce 
immigration laws even though you trust him to enforce every 
other category? And you want to talk about trust? Did I hear 
you right?
    Bishop Carcano. I want to talk about trust policies, yes.
    Mr. Gowdy. Well, I want to talk about the law. I want to 
talk about the law. You said we are a Nation of immigrants. 
That may be true. We are also a Nation of laws. And the ability 
to pick and choose the ones that you want based on political 
expediency or your view of is theology is going to undermine 
this republic very quickly. And, as a result, we'll have more 
panels with more moms.
    With that----
    Bishop Carcano. The laws of this country change when we 
realize that they're immoral or unjust.
    Mr. Gowdy. Well, then you can run for Congress and change 
the law. But as it stands right now, we're going to enforce it. 
If you don't like the law, you can change it. But what you 
can't do is just selectively decide which ones you want to 
enforce and which ones you don't. Because that's called 
anarchy.
    Bishop Carcano. Congressman, we have broken immigration 
policies. That is what needs to be addressed.
    Mr. Gowdy. Okay. But you just sat there and listed all the 
laws that we passed to try to address it and you didn't like a 
single one of them. You didn't like the law empowering local 
law enforcement. You don't like the fact that we would deny 
Federal funding to sanctuary cities that harbor people like the 
man who killed Kate Steinle.
    So it's not a question of passing laws, Bishop, with all 
due respect. It's a question of passing laws you like.
    Bishop Carcano. It's a question of passing laws that are 
just and humane.
    Mr. Gowdy. All right. And if there's anything more relative 
in the world than the word ``just,'' I don't know what it is. 
So, rather than aspire to justice, I'm just going to aspire 
that we actually enforce the law, because that is the 
community's manifestation of justice. We take what we think 
about justice and mercy and then we codify it in something we 
call the law.
    And, by the way, Bishop, these aspiring citizens that you 
talk about, the 12 million minus 1, 2, God knows how many, in 
their oath of citizenship, there are a half-dozen references to 
the law--a half-dozen references to the law in the oath that we 
expect new citizens to take. I think it would be a really neat 
idea if we actually enforced the law so that citizenship oath 
actually had a little bit of meaning, because right now it 
doesn't seem to.
    With that, I don't see----
    Ms. Lofgren. Mr. Chairman?
    Mr. Gowdy. Yes, ma'am.
    Ms. Lofgren. I would ask unanimous--speaking of the law, I 
would like unanimous consent to place in the record the case of 
Santos v. Frederick County Board of Commissioners from the 
Fourth Circuit outlining the violation of law committed by the 
Frederick County sheriff, Charles Jenkins.
    Mr. Gowdy. Well, I'm happy to grant unanimous consent. Does 
the opinion say that Sheriff Jenkins violated the law, or does 
it cite some decision made by an officer in his department?
    Ms. Lofgren. It actually, I believe, is the sheriff. But 
it's 38 pages long, and you can read it yourself.
    Mr. Gowdy. Well, I'm a slow reader, and I don't know if I 
can do it. But I just want to be fair, and I know the 
gentlelady from California is always fair.
    Ms. Lofgren. I'm always trying to be fair.
    Mr. Gowdy. I know you are. And people can read the opinion 
for what it says.
    Ms. Lofgren. Let me retract my words and ask unanimous 
consent to place the decision in the record.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see Lofgren 
submissions for the record at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104803.
    Mr. Gowdy. Without objection.
    With that, I want to thank the Members and our witnesses. I 
appreciate the perspective that each of you have loaned to the 
Committee. Again, not singling out any witnesses, but special 
condolences on behalf of everyone, no matter where they sit on 
this dais, for the two mothers in the loss of their children.
    With that, any Members who have additional statements or 
questions are welcome to make them part of the record, and we 
stand adjourned.
    [Whereupon, at 12:09 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
